No. 19-631
IN THE

Supreme Court of the United States
WILLIAM P. BARR, ATTORNEY GENERAL;
FEDERAL COMMUNICATIONS, INC., ET AL.,
V.

Petitioners,

AMERICAN ASSOCIATION OF POLITICAL CONSULTANTS, INC., ET AL.,

Respondents.
CERTIFICATE OF SERVICE
I, Rita L. Hemenway of Bateman & Slade, Inc., hereby declare
that on this second day of March 2020, I have served three (3) true
copies of the Brief of Amici Curiae National Consumer Law Center,
Verizon, and Consumer Federal of America in Support of Neither
Party by priority mail, postage prepaid, addressed as follows:
Attorneys for Petitioners
Noel J. Francisco
Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
202-514-2217
SupremeCtBriefs@USDOJ.gov
Party name: William P. Barr, Attorney General, et al.
Attorneys for Respondents
Roman Martinez V
Latham & Watkins, LLP
555 Eleventh Street, NW
Washington, DC 20004
202-637-3377
roman.martinez@lw.com
Party name: American Association of Political Consultants, Inc.,
et al.

1

Signed under the pains and penalties of perjury,

Rita L. Hemenway
Rita L. Hemenway
NOTARIZED BY:

George D. Bateman
George D. Bateman
My Commission Expires:
May 30, 2025

2

